<html>
<title> - U.S. POLICY TOWARD PUTIN'S RUSSIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                     U.S. POLICY TOWARD PUTIN'S RUSSIA

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 14, 2016

                               __________

                           Serial No. 114-191

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                __________
                               
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
20-454PDF                      WASHINGTON : 2016                        
   
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95f2e5fad5f6e0e6e1fdf0f9e5bbf6faf8bb">[email&#160;protected]</a>  
  
   
   
   
   
   
   
   
   
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Michael McFaul, senior fellow and director at the 
  Freeman Spogli Institute for International Studies, Stanford 
  University (former American Ambassador to Russia)..............     5
The Honorable Jack Matlock, fellow, Rubenstein Fellows Academy, 
  Duke University (former American Ambassador to the U.S.S.R)....    16
Leon Aron, Ph.D., resident scholar and director of Russian 
  Studies, The American Enterprise Institute.....................    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Michael McFaul: Prepared statement.................     8
The Honorable Jack Matlock: Prepared statement...................    20
Leon Aron, Ph.D.: Prepared statement.............................    25

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California: Extraneous material submitted for the 
  record.........................................................    59
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............    67

 
                   U.S. POLICY TOWARD PUTIN'S RUSSIA

                              ----------                              


                         TUESDAY, JUNE 14, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:11 a.m., in 
room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order. I will 
ask all our members to take their seats.
    Winston Churchill famously described Russia as ``a riddle 
wrapped in a mystery inside an enigma,'' but I think for many 
of us, less well-known is what he said next, because he 
commented about unlocking that riddle. He said, ``But perhaps 
there is a key. And that key is Russian national interest.''
    The problem is that we are not dealing with the interests 
of the Russian people. We could be if we were broadcasting into 
Russia the way we did during the Reagan administration when we 
had that message about political pluralism and tolerance and 
that message of educating people effectively on what was going 
on inside Russia and around the world. But we don't.
    Instead, we are dealing with the interests of Vladimir 
Putin, because he is in a position there where he is calling 
the shots. And he has not demonstrated much interest in 
cooperating with the United States. In fact, many of his 
policies are directly undermining America--from selling 
advanced weapons to Iran to destabilizing our allies by sending 
waves of Syrian refugees, over several million now, across 
their borders. And for the first time since the end of the Cold 
War, we have seen a situation where we have been forced to 
increase our military presence in Europe to make clear our 
readiness to defend NATO.
    Yet, in this environment, Putin continues to escalate. That 
is why we have this hearing today on our U.S. policy toward 
Putin's Russia. Over the past year, he has repeatedly sent 
Russian warplanes to buzz U.S. ships and planes in 
international waters. These are reckless acts, these are 
provocative acts, and a miscalculation could easily result in 
direct confrontation.
    As this committee has examined, Russia's propaganda 
machine--and for any of you who have watched RT television, you 
can see how it has a constant stream of disinformation that it 
puts out about the United States, about the U.K., about what 
actually happens in the world. But that machinery, under Putin, 
is in overdrive. It is undermining governments, including NATO 
allies. And, meanwhile, back in Russia, independent media and 
dissidents are forcefully sidelined. And for the media, when I 
say ``forcibly,'' I mean imprisoned or sometimes shot.
    A big part of the problem is that the administration has 
repeatedly rushed to try to cooperate with Russia, beginning 
with a string of one-sided concessions in the New START arms-
control agreement. I would just point out, when we pulled out 
the interceptor system in Poland and in the Czech Republic, I 
think that was a blunder. We were quick to join diplomatic 
efforts in Syria, even as the opposition forces we support have 
come under repeated Russian aerial attack. And this has 
convinced the Russians that, once again, the administration 
will concede a great deal for very little in return for the 
concession.
    That does not mean that we should rule out cooperation with 
Russia. We should cooperate with Russia. But cooperation means 
benefits for both sides. A tougher and more consistent approach 
on our part might convince Putin that cooperation is more 
advantageous than the reflexive confrontation that he often 
resorts to.
    We have clearly demonstrated that we are open to 
cooperation. It is Putin who is not. And if he continues 
playing a zero-sum game and regards the U.S. as an enemy to 
achieving his ends, then the possibility of compromise is zero 
under that circumstance. Much of his behavior to date fits that 
description, most glaringly seen by his invasion of Ukraine and 
what happened in Georgia.
    Unfortunately, Putin has repeatedly calculated--rightfully 
so--that the administration's response to his aggression will 
be lackluster. The U.S., in cooperation with the EU and others, 
has imposed sanctions, which have resulted in significant 
pressure on the Russian economy, but the administration has 
refused to provide Ukraine, for example, with the anti-tank 
weaponry needed to stop Russian tanks, which can only be 
interpreted in Moscow as weakness.
    The tragedy is that there are many problems where both 
countries could benefit from cooperation. One of the most 
obvious is combating Islamist terrorism. One witness today has 
intensely studied its rapid spread in Russia and in Central 
Asia, which, together, provide the largest number of recruits 
for ISIS outside of the Arab countries.
    Putin says he is genuinely concerned about the rising 
threat. In fact, that was his stated goal in intervening in 
Syria. But, as we know, his real agenda was to save the Assad 
regime, which has meant targeting the opposition forces that 
are supported by the U.S. far more than any targeting of ISIS 
forces.
    It is clear that U.S. strategies to deal with Russia have 
failed. If we want to accomplish a different result, we must 
negotiate from a position of strength. Only then will 
cooperation be possible with a man who has demonstrated that 
the hope of cooperation cannot survive the cold calculation of 
his narrow interests.
    And one way to address this, to get back to a theme that I 
have pushed for a number of years here with my colleague Eliot 
Engel, is the legislation that Eliot and I have advanced to try 
to get back to a program, as we once had with Radio Free 
Europe, which we should be doing with social media, with 
television. We should be broadcasting into Russia, telling 
Russians what is actually going on in their society, explaining 
to Russians what is happening around the world, explaining the 
issue of tolerance, of political pluralism, of these 
perceptions that the rest of the world have, and the truth.
    If Putin is going to continue to put out disinformation and 
misinformation and lie about the West, at the very least we 
could be telling the truth about what is happening inside 
Russia to Russians so that the people have a better 
understanding of this situation.
    I now turn to Ranking Member Eliot Engel of New York for 
any comments he may have.
    Mr. Engel. Thank you very much, Mr. Chairman. And let me 
say I agree with the statement you just made. Thank you for 
calling this hearing. You and I have long shared deep concerns 
about Russia's aggression under Vladimir Putin, and I am 
grateful that you have focused the committee's attention on 
this challenge.
    To all of our witnesses, welcome to the Foreign Affairs 
Committee. We are grateful for your expertise and insight.
    Ambassador McFaul, let me say how particularly impressed I 
was with your service as our top diplomat in Moscow. I know you 
were the target of all sorts of absurd accusations and 
harassment by Putin's allies, and I know that you were never 
afraid to push back against misinformation and stand your 
ground. And you are exactly the kind of diplomat we need to 
meet 21st-century challenges, so thank you for your service.
    And the other witnesses, thank you, as well, for your 
service.
    I have come to view Putin's Russia as a unique challenge on 
the global stage. When we face crises around the world, we 
often ask ourselves, ``What could we have done differently?'' 
or, ``What are the opportunities to defuse the situation?'' 
But, with Putin, there may not be answers to those questions 
because he is playing by his own set of rules.
    Putin has ignored Russian law, cracking down on the human 
rights of Russia's people and literally robbing future 
generations of their prosperity. He has destroyed Russia's 
standing in the world, walking away from the country's 
international obligations and shoring up the brutal Assad 
regime in Syria. And he has threatened the norms that have 
largely kept the peace in Europe since World War II, trampling 
on the sovereignty of Russia's neighbors, testing the resolve 
of NATO, and working to undermine Western unity.
    I want to be careful not to conflate Putin and his corrupt 
leadership with the Russian people. Russia is a great nation, 
but Putin is not Russia. He is an unapologetic, authoritarian 
kleptocrat, a grave threat to his own people and to stability 
and security across Europe and beyond.
    So how do we craft a policy to deal with such an 
unpredictable and irresponsible leader? For now, the best 
approach seems to be one of geographical containment. We cannot 
fix what is ailing Russian society, but we can try to keep it 
within Russia's recognized borders.
    This may be a great test for NATO's role in the 21st 
century. NATO, of course, has no ambition to chip away at 
Russia's territory, but I am confident that the alliance will 
keep its Article 5 promise. Putin uses lies and confusion to 
cast doubt on NATO's ability, so I am glad that NATO is ramping 
up its presence in Eastern Europe, sending a clear signal that 
the alliance will not back down in the face of Putin's 
aggression.
    I believe and I have said for a long time that I think NATO 
is being tested. And if we fail the test, I think it the end of 
the alliance. We cannot fail the test.
    Aside from that, sanctions have given us mixed results. As 
violence in eastern Ukraine escalates again, it is clear that 
sanctions haven't done enough to thwart Putin's ambitions. But 
sanctions are better than nothing, and, in the long term, I 
believe we have weakened Putin's ability to project a 
destabilizing force beyond Russia's borders.
    But we know Putin isn't going anywhere, so we are left to 
ask, what else should we be doing?
    I recently introduced legislation that, in my view, would 
take us in the right direction. My bill, the STAND for Ukraine 
Act, would tighten sanctions on Russia and would reject any 
form of recognition of Russia's rule over Crimea in the same 
way we didn't recognize Soviet occupation of the Baltic states 
during the Cold War. It would also help to drive investment in 
Ukraine and push back against Russian propaganda and 
disinformation.
    There are other issues I hope we can touch on today, as 
well: How do we help the Russian people hear a different point 
of view? And the chairman spoke about that in his opening 
statement. After all, Putin's apparent approval ratings have a 
lot to do with the fact that there is simply no alternative. 
How do we seize on the common ground we share with the citizens 
of Russia? Even if the United States isn't popular in Russia, 
we know that the country's citizens are disgusted by corruption 
at every level of government.
    And let me close by saying we are not focusing on Russia 
today because we want to pick a fight, breathe new life into 
old animosities, or drag the country down. A failed Russia 
would spread damaging ripple effects around the world. Rather, 
we hold out hope for the people of Russia. We want to see them 
realize their democratic aspirations. We want to see their 
country become a stable and prosperous European power and 
partner on the world stage. Putin has strangled democracy in 
Russia. We had such high hopes.
    But I look forward to hearing our witnesses today and 
hearing what they have to say, and I thank them again for 
coming.
    And I yield back, Mr. Chairman.
    Chairman Royce. All right.
    This morning, we are pleased to be joined by a 
distinguished panel.
    The Honorable Michael McFaul is a professor at Stanford 
University. Prior to his position, Ambassador McFaul served 5 
years in the Obama administration, first as Special Assistant 
to the President and Senior Director for Russia and Eurasia at 
the National Security Council, and then as the U.S. Ambassador 
to Russia.
    Ambassador Jack Matlock is a fellow at Duke University, 
and, prior to this position, Ambassador Matlock served 35 years 
in the American Foreign Service. During that time, he has 
served as the Ambassador to the Soviet Union, Special Assistant 
to the President for National Security Affairs, and Ambassador 
to Czechoslovakia from 1981 to 1983.
    Dr. Leon Aron is a resident scholar and director of Russian 
studies at the American Enterprise Institute. He has served on 
the Broadcasting Board of Governors since 2015. Prior to these 
positions, he taught at Georgetown University.
    Without objection, the witnesses' full prepared statements 
will be made part of the record, and our members will have 5 
calendar days to submit statements and questions and extraneous 
material for the record.
    Ambassador McFaul, please summarize your remarks, if you 
could. Thank you, Ambassador.

 STATEMENT OF THE HONORABLE MICHAEL MCFAUL, SENIOR FELLOW AND 
  DIRECTOR AT THE FREEMAN SPOGLI INSTITUTE FOR INTERNATIONAL 
  STUDIES, STANFORD UNIVERSITY (FORMER AMERICAN AMBASSADOR TO 
                            RUSSIA)

    Ambassador McFaul. Thank you, Mr. Chairman. Thank you----
    Chairman Royce. Ambassador, let me just interrupt you. If 
everyone would push that red button.
    Ambassador McFaul. Push the top button?
    Chairman Royce. There you go.
    Ambassador McFaul. All right? There you go.
    So I will thank you again, Chairman Royce and Ranking 
Member Engel and other members of the committee, including 
several of you that I had the pleasure of hosting in Moscow 
when I was Ambassador.
    It is great to be back with Ambassador Matlock and Leon 
Aron, people I know well. I guarantee you, if you listen, you 
are going to learn something from these two gentlemen today.
    I have a longer report that I want to put in the record, 
but I just want to answer two questions today in the limited 
time I have: Why did we get here, how did we get here, in terms 
of this confrontation, which I believe is worse than at any 
time since the Cold War? In fact, I think you have to go deep 
into the Cold War to see a time that has been so 
confrontational. And, as the Russians like to say, ``Chto 
delat,'' what is to be done.
    And I want to focus on the diagnostics first, in part 
because I am an aspiring professor, recovering bureaucrat, and 
I think it is important to know the ``why'' question before you 
do the prescription. So I am going to first focus on that and, 
in my limited time, then get to prescriptions.
    One argument why we are in this mess that we are in today 
is that Russia, and Putin in particular, is pushing back after 
decades of American aggression against him. The United States 
lectured Russia about markets and democracy, we expanded NATO, 
we bombed Serbia, we invaded Iraq, we supported color 
revolutions, so the argument goes, and so Putin just had to 
push back; he was compelled to annex Crimea and intervene in 
eastern Ukraine. And most certainly that is the main conflict 
that has sparked the confrontation.
    Now, I want to be clear. None of those policies were 
popular in Moscow during the last three decades, although it 
should be noted that both President Yeltsin and Putin at one 
point flirted with the idea of actually joining NATO.
    But in between that negative record that I just described 
and our moment today, there was a period of cooperation. We in 
the Obama administration called it the ``reset.'' And, during 
that period, we got a lot of things done that, Mr. Chairman, in 
my opinion, were in the American national interests. We got the 
START Treaty done. We got sanctions on Iran. We expanded the 
northern distribution network to supply our troops in 
Afghanistan so we had an alternative route instead of Pakistan, 
which was vital to a military mission we had in 2011 when we 
killed Osama bin Laden. We got them into the World Trade 
Organization. We got them to support U.N. Security Council 
Resolutions 1970 and 1973 on Libya. And we increased trade and 
investment during that period. By the way, during this period, 
60 percent of Americans thought Russia was a friendly or allied 
country, and vice versa inside Russia.
    That was just 4 years ago. That wasn't 40 years ago or 
before the Bolshevik revolution. So you can't explain the 
period of cooperation that I just described looking at these 
previous variables. Something else has to be here.
    A second explanation is that Obama was weak and created the 
permissive conditions for Putin's aggression. Maybe we will 
have time to talk about that in questions and answers in more 
detail.
    I would just remind you that every time a Russian leader 
has decided to use force or to suppress democratic movements in 
Eastern Europe, the United States has not had good options for 
deterring it. Whether it is in Georgia in 2008 under George W. 
Bush, the crackdown on Solidarity in 1981 under Ronald Reagan, 
1968 in Czechoslovakia, or 1966 in Hungary, we did not have 
military means for stopping them.
    Let me say something really provocative. I believe the 
Obama administration's response looks more like Ronald Reagan's 
response to what happened in Poland in 1981 than George Bush's 
response to what happened in Georgia in 2008. That did get your 
attention, didn't it? I will bet you we are going to come back 
with that.
    The third explanation, and what I think is the real driving 
explanation for what is going on, is this is all about domestic 
politics in Russia and in Ukraine and very little to do with 
American foreign policy, either strong or weak. Two things are 
important to this explanation. One, Putin returned. And Putin 
is not Medvedev. He sees the world in zero-sum terms. He sees 
the hand of the CIA in fomenting revolutions in the Arab world, 
in Ukraine, and in Russia. And he sees us fundamentally as an 
enemy. And, second, there were giant demonstrations against his 
regime in December 2011 and in the spring of 2012 when I was 
Ambassador, and he needed a new argument to suppress those 
people, to say that they were the enemies of the regime. And 
that is when he rolled out this old playbook from the Soviet 
era and described us--the United States, the Obama 
administration, and me personally--as the enemy, those that are 
fomenting revolution against him.
    And, in that context, there is not an easy way to cooperate 
with him if he sees the world in these zero-sum terms and if he 
sees an American hand behind these uprisings, be they in Moscow 
or Kiev.
    So, to me, I actually agree with both the previous 
statements. It is a tragic moment in U.S.-Russian relations; I 
don't celebrate this at all. But we have to have a patient, 
comprehensive policy for deterring Russian aggression, working 
with the government when it is in our national interest, and 
supporting Russian society.
    In my written remarks, I go into detail about a six-point 
plan. Let me just mention the headlines and then stop. One, 
most important of all, in my opinion, to deter Putin's 
aggression, is to help Ukrainian democracy and markets succeed. 
Nothing else is more important than that objective, and so I 
look forward to seeing your legislation. I think that is orders 
of magnitude more important than anything else. Second, 
strengthening NATO, as has already been noted. I fully concur 
with that. Third, pushing back on Russian propaganda, not 
through American propaganda but through facts. I agree with 
that. Fourth, working with the government in limited ways when 
we can, when it serves our national interest. And, finally, 
engaging in supporting the Russian people, because there is no 
reason to contain both the state and the people. We should 
continue to engage when the circumstances allow.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador McFaul follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Chairman Royce. Thank you, Ambassador McFaul.
    Now we will go to Ambassador Jack Matlock.

  STATEMENT OF THE HONORABLE JACK MATLOCK, FELLOW, RUBENSTEIN 
FELLOWS ACADEMY, DUKE UNIVERSITY (FORMER AMERICAN AMBASSADOR TO 
                          THE U.S.S.R)

    Ambassador Matlock. Mr. Chairman, members of the committee, 
thank you for your invitation to join these distinguished 
scholars.
    Chairman Royce. Ambassador, I am going to suggest you pull 
that microphone closer. There you go. Thank you, sir.
    Ambassador Matlock. All right.
    Thank you for your invitation. And I am very pleased to 
join these distinguished scholars in discussing our relations 
with Russia. Ambassador McFaul coauthored, among his other 
works, a fine book which I make a required reading for my 
students of U.S.-Russian relations. And he, of course, was 
Ambassador to Russia. And I would have to say that I don't know 
whether it was an advantage or disadvantage, but he had a 
larger staff to deal with Russia than I had to deal with the 
entire Soviet Union. So I don't know whether that was a 
blessing or a curse, except that I had, I think, the best staff 
anyone could wish at the time that we were dealing with the 
Soviet Union. And, of course, Dr. Aron and I go back a long way 
in many different meetings and so on. So I am very happy to be 
here along with them.
    Some of my perceptions are going to be probably different, 
because I am deeply concerned with the direction U.S.-Russian 
relations have taken of late. We can debate--and I will 
participate in it if we wish--what caused this. I have written 
extensively on it. And I would simply say that the perception 
on both sides, in both cases, I think, has distortions. Theirs 
may be greater or lesser than ours, but there is cause and 
effect in the interaction that went both ways.
    The mutual accusations and public acrimony has at times 
been reminiscent of that at the height or the depth of the Cold 
War, but the issues are quite different.
    The Cold War was fundamentally about ideology, the attempt 
of the Communist-ruled Soviet Union to spread its control of 
other countries by encouraging what Karl Marx had called 
proletarian revolutions against existing governments. The 
Soviet leaders called their system socialist, but it actually 
was state monopoly capitalism that tried to replace market 
forces with government fiat. It was a catastrophic failure in 
meeting people's needs, but it managed to build a formidable 
and, in some respect, unmatched military power.
    Today's tensions are not about ideology. Russia is now a 
capitalist country. Okay, one that has more state control than 
many others, but basically capitalist. It is not trying to 
spread communism in the world. Today's tensions, if we really 
look at them objectively, are more like those that, through 
incredible misjudgment, brought on World War I--that is, 
competition for control of territory in and outside Europe.
    We know how that ended. Every European country involved 
suffered more than they could possibly have gained. Competition 
over territory was bad enough a century ago. Since World War 
II, however, the danger has risen exponentially if countries 
with nuclear weapons stumble into military conflict. The number 
of nuclear weapons that remain in U.S. and Russian arsenals 
represent a potential existential threat to every nation on 
Earth, including specifically both Russia and the United 
States.
    So how did we end the Cold War and reduce this threat? One 
key element was an agreement that President Ronald Reagan and 
General Secretary Mikhail Gorbachev made in their very first 
meeting. They agreed on a statement that Reagan had made in two 
previous speeches: A nuclear war cannot be won and must never 
be fought. And then they added, since both countries are 
nuclear powers: That means there can be no war between us.
    With that statement agreed, Secretary of State George 
Shultz was able to argue convincingly that an arms race between 
us was absurd. We could not fight each other without committing 
suicide, and what rational leader was going to do that? In just 
a couple of years, we had abolished a whole class of nuclear 
weapons and our arsenals and, shortly thereafter, cut strategic 
nuclear weapons in half.
    In concluding the New START agreement, which Ambassador 
McFaul has reminded us of, the Obama administration made an 
important contribution to our national security. But, since 
then, nuclear cooperation with Russia has deteriorated and 
seems practically nonexistent. It is urgent to restore that 
cooperation if we are to inhibit further proliferation. We are 
unlikely to do so if we proceed with plans to increase our 
military presence in Eastern Europe.
    I am aware that one of our presumptive candidates for 
President has indicated that he might find some form of nuclear 
proliferation desirable. I believe that is profoundly mistaken, 
as is the idea that allies should pay us for their protection. 
I do not believe we should use our fine military as hired 
gendarmes to police the world, even if those protected were 
willing to pay the cost.
    These comments, however, do reflect one important truth 
which we need to recognize, and that is that military alliances 
can create liabilities rather than augmenting power. When our 
interests are not closely aligned, an American security 
guarantee can create a moral hazard. What is to keep an 
``ally'' <greek-l>in quotes,  deg.from picking a fight 
unnecessarily and then expecting Uncle Sam to win it for him? 
Sounds like schoolyard bullying to me.
    I have trouble, to take just one example today, to find 
much concurrence between American security interests and 
Turkish behavior. Is Turkey really an ally, or is it a problem? 
I don't want to single them out--I could use other examples.
    Yes, when we have made commitments, we must honor them. But 
we must be more careful and selective about taking on 
liabilities. And some of our alliances formed under the 
different conditions of the Cold War should be reviewed. And I 
think that, increasingly, I believe you will find, if you 
question them, your constituents, many of them are worried 
about our over-military-involvement in the world, about 
attempts to use our fine military, the best in the world, to 
solve problems that can't be solved by military means and to 
carry out tasks that are more in the interests of other 
countries than they are in the United States.
    We must set our priorities, and the highest priority should 
be the protection and security of the United States of America. 
The only thing that threatens our existence would be another 
nuclear arms race that gets out of hand.
    Let's bear that in mind, because that is something 
President Ronald Reagan understood. Yes, he was a heavy critic 
of communism, but his idea was, yes, we have to stop the Soviet 
Union from expanding its influence; they have a crazy system. 
If that is what they want, that is their business. And, as a 
matter of fact, we didn't bring down communism; Gorbachev 
brought down communism. It was brought down by internal 
pressures, and it was brought down by internal pressures when 
we ended the Cold War and ended the external pressures on the 
Soviet Union. I think there are lessons here that we have 
sometimes forgotten.
    Now, I have views on how we might deal with Russia on 
current issues such as Ukraine and Syria, democratization, and 
human rights and will share them if you wish. I believe there 
are dignified ways we can reduce tensions with Russia on those 
issues and others.
    However, the main thing we should bear in mind, that is, in 
confronting the greatest dangers to civilized life in this 
country, such as terrorism--didn't we have a reminder just 2 
days ago in this horrible massacre? Now, if there is any issue 
that the U.S. and Russia have common interest, it is in 
fighting terrorism. They are more vulnerable than we are. 
Sometimes we tend to forget that. And I still don't understand 
why we have not been able to have more effective cooperation.
    So I think the main thing we need to bear in mind is that, 
in confronting these things, whether it be terrorism, failed 
states, organized crime, environmental degradation, U.S. and 
Russian basic interests are not in conflict. As we deal with 
them, as we must, Russia will either be part of the problem or 
part of the solution. It is obviously in our interest to do 
what we can to encourage Russia to join us in confronting them. 
They are unlikely to do so if they regard us as an enemy or a 
competitor for influence in their neighborhood.
    As I said, we can argue about who is more responsible for 
the situation, but the fact is that, as you well know, politics 
is driven by perceptions. And their perceptions are that we 
have been consistently moving against their interests and 
trying to encircle them and even trying to interfere in their 
internal politics.
    Yes, President Putin has made many mistakes, many that are 
not in Russia's interests. But Russia's President, Russia's 
Government is a matter for Russians to decide. Their scandals 
are a matter for them to deal with. And I think when we 
presume----
    Chairman Royce. Thank you, Professor Matlock.
    Ambassador Matlock [continuing]. To do this ourselves, that 
is----
    Chairman Royce. Thanks for----
    Ambassador Matlock. Above all, I think we need to return to 
the position Reagan and Gorbachev set out: A nuclear war cannot 
be won, must never be fought, and that means there can be no 
war between us. To act on any other principle can create a risk 
to our Nation and the world of unimaginable gravity.
    [The prepared statement of Ambassador Matlock follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you for those points.
    We now go to Dr. Aron.

STATEMENT OF LEON ARON, PH.D., RESIDENT SCHOLAR AND DIRECTOR OF 
       RUSSIAN STUDIES, THE AMERICAN ENTERPRISE INSTITUTE

    Mr. Aron. Thank you very much, Mr. Chairman.
    Mr. Chairman, Ranking Member, members of the committee, I 
don't have to remind anyone in this room that this is a tough, 
even rough, patch in the relations between the United States 
and Russia. There are many reasons for this troubling state of 
affairs, for which both sides bear responsibility.
    But I would like to explore today one of the key elements 
of the present situation, and that is Vladimir Putin's system 
of beliefs, his vision of Russia in the world, and his 
understanding of his role as Russia's leader.
    I want to do it because, contrary to a fairly popular view, 
I don't believe that his foreign policy, in particular his 
relationship with the United States, are made on an ad hoc 
basis. I think, instead, it is part of a long-term geopolitical 
project rooted deeply in his ideology, in his self-imposed 
personal historic mission, and domestic political imperatives 
of his regime's survival.
    There are few tenets in Vladimir Putin's credo that can be 
fairly ascertained now after his 16 years in power. Whether he 
was taking a break as the President or not, he was the 
effective leader.
    One, the end of the Cold War was Russia's equivalent of the 
1919 Versailles Treaty for Germany, a source of endless 
humiliation and misery.
    Two, the demise of the Soviet Union, in Putin's words, was 
``the greatest geopolitical tragedy of the 20th century.''
    Three, the overarching strategic agenda of a truly 
patriotic Russian leader, not an idiot or a traitor or both, as 
Putin almost certainly views Mikhail Gorbachev and Boris 
Yeltsin, is to recover and repossess for Russia political, 
economic, and geostrategic assets lost by the Soviet state at 
its fall. A few years back, I called this the Putin doctrine, 
and I think he has implemented it successfully and consistently 
virtually from day one of his Presidency.
    In addition to his KGB training, these views are also 
shaped by Putin's favorite philosopher, Ivan Ilyin, whom the 
Russian President cites in speeches, assigns as reading to 
governors, and whose remains he had moved from Switzerland to 
re-inter on one of the most hollowed Russian grounds, the 
Donskoy Monastery in Moscow.
    Ivan Ilyin believed, in essence, that Russia is never wrong 
but perennially wronged, primarily by the West; the West's 
hostility to Russia is eternal and prompted by the West's 
jealousy of Russia's size, natural riches, and, most of all, 
its incorruptible saintly soul and God-bestowed mission to be 
the third Rome, the light among nations; the plots against 
Russia are relentless, and, while truces are possible and often 
tactically advantageous to Russia, genuine peace with the West 
is very unlikely.
    In addition to ideology--and Mike McFaul referred to this--
Putin's foreign policy is also shaped by a large, I would say, 
urgent and powerful domestic political imperative. By the time 
of Putin's third Presidency, the toxic domestic economic 
climate had begun to reduce Russian economic growth to a crawl, 
even with the oil prices historically high. Most troubling for 
the regime, Putin's popularity, which was and continues to be a 
key to the regime's legitimacy, dropped by almost one-third 
between 2008 and 2011.
    In the words of Putin's personal friend, trusted adviser, 
and former First Deputy Prime Minister and Minister of Finance, 
Alexei Kudrin, Russia had hit an institutional wall and needed 
a different economic model.
    Putin chose to ignore this advice and reject it. And, 
instead of liberalizing institutional reforms, he made likely 
the most fateful decision of his political career: He began to 
shift the foundation of his regime's legitimacy from economic 
progress and steady growth of incomes to what might be called 
patriotic mobilization. There followed the annexation of 
Crimea, the hybrid war in Ukraine, and then Russia's 
involvement in Syria.
    Putin appears to have stepped on an authoritarian escalator 
from which there is no exit except by physical demise or 
revolution. And the regime he is heading is presenting the West 
with an unprecedented challenge: A highly personalistic 
authoritarianism, which is resurgent, activist, inspired by a 
mission, prone to risky behavior both for ideological reasons 
and for those of domestic political legitimacy, and armed, by 
the latest count, with 1,735 strategic nuclear warheads on 521 
delivery platforms.
    Does that mean that the United States cannot cooperate with 
Putin's Russia? Of course not, so long as we do not waste time 
and effort in areas where the gap in ultimate goals between 
Washington and Moscow is too wide to bridge, such as it is, I 
think, in Syria.
    Yet there is one area where the coincidence of goals is not 
just possible but vital to the interests of the United States. 
Today, Russia does indeed find itself under siege--of course, 
not by the West, despite what the state propaganda machine 
asserts on national television daily. It is under the siege 
from what, in Mr. Rohrabacher's subcommittee a few months ago, 
I described as the Russian jihad.
    Russia is indeed under pressure domestically and from the 
outside. And I will be happy to provide you with the results of 
my research, but let me just mention that we can and should 
cooperate with Moscow in Central Asia. Central Asia is more 
vulnerable to Taliban and ISIS than any other region in the 
world today. Yes, it is primarily Russia's problem, yet it will 
be our problem, as well, when an area with a population of 68 
million people becomes a terrorist haven and a magnet for 
would-be world jihadists.
    Mr. Chairman, in conclusion, I would like to ask that a 
recent article of mine in Foreign Policy titled ``Playing Tic-
Tac-Toe with Putin'' is entered into the record.
    Thank you very much.
    [The prepared statement of Mr. Aron follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Without objection. Very good. We will enter 
that into the record, Dr. Aron.
    I was going to ask you about your perceptions on Central 
Asia and where we could cooperate here. And I think your point 
about recruitment--there are literally thousands of recruits 
coming out of Russia into ISIS right now, but, on top of that, 
there is the wider problem of this radicalization and the pace 
of it.
    It seems to me that there is this room for cooperation, 
but, at the same time, there are questions about what Putin 
would seek from us, what could he offer. There is also the 
question in terms of associating ourselves with Putin's 
counterterrorism efforts, because I am not sure what form they 
would take, given the way in which we try to conduct our 
counterterrorism operations with a great deal of, shall we say, 
care.
    And what is, obviously, most vexing to me is watching 
Syria. Instead of hitting ISIS, he hit the Free Syrian Army, 
and instead of hitting the army, he hit the markets. His 
bombers hit, you know, the hospitals, hit the schools. This 
aspect of this is what is so troublesome for us in the West 
because it seems counterproductive in terms of the effort of 
actually going after Islamist terrorism.
    So walk us through how, Dr. Aron, we could engage on that 
front.
    Mr. Aron. Well, on Syria, I mentioned, yes, all those 
things you mentioned could be summarized under the heading of 
``Different, Divergent Goals.'' The goal of Putin in Syria is 
(A) to save the Assad regime, and we could discuss why he wants 
it; (B) to present the West with a total repugnant choice 
between Assad and ISIS; and (C) have Russia as the dominant 
outside player in the Middle East. Clearly, neither of those is 
our goal.
    In Central Asia, on the other hand, I think the goals do 
coincide. Let me remind you, Mr. Chairman, last week there was 
not just a terrorist act, there was street fighting in the city 
of Aktobe in Kazakhstan between government troops and 
terrorists. That is 400 kilometers from Russia's borders. You 
know, that is less than 250 miles.
    Churchill was mentioned here, I think by Jack Matlock. 
Central Asia is the soft underbelly of Russia. This is an 
enormous area. You know that there are 6 million guest workers, 
many of them illegal, in Russia coming in and out from Central 
Asia. Russia is the major recruitment center for ISIS, an 
estimated 300 to 500 recruiters. Most of Central Asians have 
been recruited not in Kazakhstan or Tajikistan or Kyrgyzstan, 
they were recruited on construction sites in Moscow to join 
ISIS.
    There are all kinds of statistics. For example, Russian 
speakers from Russia and the former Soviet Union, primarily 
Central Asia, are the second-largest language group in ISIS 
after Arabic speakers.
    We cannot help Putin inside the country, and we could 
discuss why he has this problem inside the country--
radicalization of its own Muslims and the guest workers. But in 
Central Asia, I believe, Tajikistan, Kyrgyzstan, and, to a 
certain extent, Uzbekistan and Kazakhstan are very troubled 
states. If they fall, as I said, the danger to us is that they 
will become havens for terrorists.
    Chairman Royce. But let me just add a point, because Mr. 
Engel and I have traveled in Central Asia, and we have had many 
meetings and many explanations from local government officials 
about how Gulf-state money floods into that region and acquires 
either radio stations, television stations, newspapers; 
increasingly, how also imams come from another part of the 
world----
    Mr. Aron. Right.
    Chairman Royce [continuing]. And change the indigenous 
Muslim faith, or ideology, to a new ideology. As they would say 
to us, these are not our customs, these are customs that are 
being imported here, but they are changing our culture.
    And it looks like what we see happening across Central Asia 
is also happening across southern Russia. And that, then, leads 
to this problem. And I would argue this is going to be the next 
big problem because of the rate at which this is happening.
    The last point I wanted to ask you--I am almost out of 
time--is just some of the stuff that we hear on RT television 
or in Russian propaganda--the Zika virus was created by the 
United States. You know, you have a $450 million budget 
spreading this kind of nonsense across Latin America, Central 
Asia, Europe, around the world, here, a lot of disinformation, 
24 hours a day.
    There has to be a more effective way to move forward to 
counter this disinformation, get the facts out there, and, item 
by item, knock this stuff down, you know, knock this narrative 
down with the truth about what is going on, because, obviously, 
it is having an impact among the Russian-speaking population in 
Eastern Europe, certainly, but beyond that now. This is being 
translated in all these other languages. And it is just a 
constant, big lie, propaganda effort that has to be countered.
    Dr. Aron, any response on that?
    Mr. Aron. Well, Mr. Chairman, I have to put on my BBG 
Governor hat. We have a good relationship with your committee. 
We are working together to make U.S. international broadcasting 
more effective.
    Let me tell you, though, that my own experience is that, 
ultimately, the most effective countermeasure to the Russian 
propaganda is not just the U.S. airwaves but empowering the 
local Russian-speaking population in former Soviet Union.
    Chairman Royce. Reporters and stringers?
    Mr. Aron. Reporters, stringers----
    Chairman Royce. Uh-huh.
    Mr. Aron [continuing]. Through nongovernment and government 
grants.
    One of the examples that I believe I gave, testifying on 
the issue of the Russian propaganda in the Senate, was 
StopFake, which is a very effective site in Kiev run by the 
students of the department of journalism of the Mohyla Academy.
    This is ultimately the only way to counter the Russian 
propaganda, because it gives the people of those countries--
and, of course, this could be spread. Similar efforts are 
occurring in the Baltics and in Central Asia.
    Chairman Royce. Thank you, Dr. Aron.
    Mr. Eliot Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman.
    Ambassador McFaul, I wanted to discuss with you a little 
bit about one of the things you mentioned when you said that 
Ukraine is central to blocking Putin.
    I have been really at odds with U.S. policy toward Ukraine. 
First of all, back in 2008, I think it was a strategic blunder 
that NATO did not admit Ukraine--and Georgia, by the way--in 
2008. I know that the Bush administration said that they pushed 
to have it done but that the Germans and then, to a lesser 
degree, the French blocked it. I think that Putin's aggression 
in both those countries would not have happened if they had 
been members of NATO. I think our lack of bringing them into 
NATO makes it virtually impossible for them to come into NATO 
in the future, and I think that was a time lost.
    I think that Ukraine is so important. It is really the 
center of where we have our disagreements with Russia. If we 
allow Crimea to just be annexed and do nothing about it, don't 
even talk about it anymore, if we allow Putin to start this 
nonsense in--if we allow Putin to continue his nonsense, I 
should say--in eastern Ukraine--you know, reports indicate that 
the fighting has stepped up again in Ukraine. And it seems that 
every time Putin feels pressure in one part of the world he 
will intensify the military campaign in the Ukrainian east as a 
valve to release that pressure. And, you know, at the same 
time, Ukraine is fighting serious corruption problems, and it 
limits its government's ability to respond to the Russian 
aggression.
    I mean, I just think that we have the most pro-Western 
government in Ukraine that we could possibly have, and God 
forbid that government falls. It will be 100 years before we 
will have anything like that.
    And, to me, this really strikes at the core of NATO. If we 
want NATO to continue to be successful and not just worthless, 
it seems to me Ukraine is where we make our stand.
    I disagree with the administration's lack of providing 
weapons to the people of Ukraine. I know they feel that Ukraine 
can never beat Russia, and so, if we provide Ukraine with more 
weapons, it will just escalate the situation. But I think Putin 
makes a different calculation. When Russian soldiers start 
coming home in body bags, I think that his calculation will be 
different, that he can just make trouble whenever he wants to 
and there will be no price to pay.
    So I want you to expand on Ukraine, because I think that is 
really where it is all about. And shame on us if we allow that 
regime in Ukraine to falter.
    Ambassador McFaul. Thank you for the question.
    I agree. I agree with everything you just said. I do 
believe that the best way to support reform and those that care 
about democracy and markets in Russia is to have Ukraine 
succeed. I believe that the best way to deter further 
aggression from Ukraine is to help Ukraine succeed. It is when 
the government is collapsing, when democracy is not working, 
when the economy is not producing that creates the permissive 
conditions for more mischief.
    So I really do think the key moment in all of European 
security right now is what this government will do over the 
next 2 to 10 years. This is a long-haul issue. This is not 
something that is going to be solved in 6 months.
    Mr. Engel. ``This government'' meaning which government?
    Ambassador McFaul. The Ukrainian Government.
    Mr. Engel. The Ukrainian Government.
    Ambassador McFaul. Yes.
    Now, I would disagree slightly. I think there were people 
that used to be in the government that were better. You know, 
Minister Jaresko, for instance, was, I think, a great Finance 
Minister, the former Minister of the Economy. I hope to see 
them back again.
    But, generally, I think the glass is half-full, not half-
empty. They are doing some extraordinary things, especially on 
the macroeconomic front, when facing some real big challenges. 
And, you know, talking to some very senior folks over at the 
IMF in the last few days, they are pleased with the progress 
they have made.
    The one issue that they agree, that the Ukrainians agree, 
and I agree that needs more focus is a fight against corruption 
and to get the oligarchs out of the political process. That is 
going to be a long process, and we should be engaged in that 
process. I think what happens in Ukraine really determines the 
fate of what Russia will do with respect to that part of the 
world.
    With respect to Europe, with NATO, I would just say two 
things. One, I disagree--I want to make sure everybody 
understands I do disagree with Ambassador Matlock right now. 
Whether it was right to expand NATO or not, we could relitigate 
that. We were probably on different sides of that debate. But 
to pull back now, I think, would be a very dangerous thing 
because it would create a vacuum, it would create uncertainty 
about our commitment to our NATO allies.
    And, to me, the best way to keep the peace--we are all 
quoting Ronald Reagan. Let me quote one more Ronald Reagan 
quote. I am also at the Hoover Institution, by the way. ``Peace 
through strength.'' So Putin needs to have zero doubt in his 
mind that we are going to have our Article 5 commitments to our 
allies, including our allies the Baltic states and Poland. And 
that is why I support making that clear.
    By the time when we got to the government, just to be clear 
about the historical record, the debate about Ukraine joining 
NATO was over. Whether that was good or bad, again, we can talk 
about that; it was not on the agenda. So when I see on RT that 
they are doing this in Crimea to stop NATO expansion, it is 
nonsense. There was no NATO expansion.
    I was in the government for 5 years, and pretty much every 
meeting with Mr. Putin and Mr. Medvedev and on every phone call 
but one, the issue of NATO expansion never came up once, 
because the issue was over. Ukraine was not asking to join 
NATO. NATO did not want Ukraine to join. After the election in 
2010, Mr. Yanukovych even more so did not.
    It all is a post facto rationalization for what Putin did 
in Ukraine that he brings that up. And I think we need to be 
clear about that historical record.
    Mr. Engel. Okay. Thank you.
    Ambassador McFaul. Thank you.
    Mr. Engel. Thank you.
    Chairman Royce. Thank you.
    We go to Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. Yes. And thank you very much, Mr. 
Chairman, for making sure that this was a very balanced hearing 
today. And I appreciate that, realizing that some of the things 
that I believe are going on in the policies here don't reflect 
very many of my fellow members' ideas of what the policies 
should be. But we are all trying to be honest and trying to 
make a better world, trying to find a way that we can actually 
have peace between two of these major countries, the United 
States and Russia.
    And I am proud to have played a role in Ronald Reagan's 
efforts to defeat communism and end the Cold War and, yes, 
Ronald Reagan's intent to create a new era of friendship 
between the United States, the people of the United States, and 
the people of Russia. And I know that Ambassador Matlock played 
an important role in this, as well, and I am very happy to see 
him and hear him with us today.
    Let me just note, I have been watching this for a long 
time, as well, and I am appalled at the depth that we have let 
our relationship sink to at this point. We are at the lowest 
point of any time since the ending of the Cold War.
    And I do not believe, as some people have indicated already 
that they believe, that all of this can be related to Putin. 
The fact is there has been an unrelenting hostility toward 
Russia from the very days that we were negotiating with them 
and they were making concessions that led to tearing down the 
Berlin Wall; that led to the withdrawal of Soviet troops, which 
were no longer Soviet troops, were Russian troops from Eastern 
Europe; which led to major arms reduction agreements between 
our countries; that, even during those times, there was an 
element that hated Russia. Over and over again, we would hear 
it. And some of them had very good reasons, because their 
family were murdered by communists, who happened to be 
Russians, during the Cold War.
    And also we had people who just could not get over the fact 
that it was not Russia that was the enemy in the Cold War, it 
wasn't the Russian people, but was, indeed, communism that was 
the enemy. It was the communism that spurred Russia to build 
these rockets and missiles that threatened us, to support 
radical elements around the world, to create revolutions in 
order to establish atheistic communist dictatorships throughout 
the world. That was communism. That wasn't the Russian people.
    But yet there have been thousands of documents that have 
just recently been declassified--Mr. Matlock, I want to ask you 
if you have seen some of these and whether you agree with 
them--that did say that we actually proposed to the Russians 
that, if they would withdraw their troops from Eastern Europe, 
that at that point we would not be expanding NATO, and we gave 
them the impression they would be integrated into the economies 
of Western Europe and the world. And, in either case, there was 
no ability for the Russians to get into Europe. That is not 
even a question. But, at the same time, we end up expanding 
NATO.
    Was there an understanding, although it wasn't written 
down, that we would not have an expansion of NATO, so that 
Russians would withdraw their troops and troops with guns aimed 
at Russia would not go right up to their border? Was that an 
understanding at that time, Mr. Matlock?
    Ambassador Matlock. It was indeed. It was indeed the 
understanding at that time. Now, this was not a legal 
commitment.
    Mr. Rohrabacher. Right.
    Ambassador Matlock. I must say I testified in the Senate 
against the original NATO expansion because I thought it was 
not in the U.S. interest, and I thought it was not necessary to 
begin to divide Europe again. At the end of the Cold War, we 
had a Europe whole and free, and that was the objection. You 
don't keep a Europe whole and free by taking what had been a 
Cold War alliance, which should have been preserved as it was, 
and using it by moving the things left, and it was quite 
predictable then that if we did.
    So the reason that I had for not expanding NATO was the 
interest of the United States. However, it is quite true that 
the Bush administration and our allies, particularly our 
Germans, made statements during German unification that clearly 
implied that if the Soviet Union did not use force in Eastern 
Europe, and allow Germany to allow and stay in NATO, there 
would be no expansion of NATO jurisdiction.
    Mr. Rohrabacher. And this----
    Ambassador Matlock. At one point, Secretary Baker said not 
one inch to the east, and Gorbachev answered that, of course, 
that would be unacceptable. They were talking about east 
Germany, but the language is general.
    Mr. Rohrabacher. Mr. Chairman----
    Ambassador Matlock. That was the understanding. Now, it was 
not a legal question.
    Mr. Rohrabacher. Let me jump in here for a moment. That was 
long before there was ever any Mr. Putin, and in fact, this is 
long before any of these ``hostile acts'' that we are being 
told about happened. That was an indication of what? That 
people were still going to be treating Russia as if it was the 
Soviet Union. And so right from the beginning, we have had this 
incredible hostility that--and just let me note, we have, for 
example, buzzing our airplanes right now, buzzing--are being 
buzzed by Russian airplanes, our ships. The American people see 
that.
    Well, where are our ships? The ship that was being buzzed--
I don't remember where I heard this--was in the Baltic Sea and 
here it was, I don't know how many miles from St. Petersburg, 
but why are we sending our U.S. military forces that close to 
Russia? We have nuclear weapons delivery systems that are being 
aimed at Russia. How else would they think of that except as 
being a hostile act? And for them to buzz a ship to see what 
kind of ship it was right off their borders.
    By the way, some of these ships that we have sent there are 
closer to Russia than Catalina Island is to Los Angeles. What 
if some nuclear weapons delivery system showed up there? What 
would we think? Would we send an airplane out to buzz it around 
and see what kind of ship it is?
    I think that both sides, both Russia and the United States 
need to take a deep breath and step back from this whole 
military operation that are actually making things worse rather 
than making things better, and we need to find out where our 
differences are, negotiate them, see where we can work 
together.
    And Mr. Aron, thank you very much for your wonderful 
testimony today, which is aimed at where we need to work 
together, or we are all going to suffer because radical Islam 
is the threat today, not the Soviet Union. And so, I appreciate 
you focusing on where we could cooperate, which would be better 
for both of us.
    So thank you, Mr. Chairman, and----
    Chairman Royce. Thank you, Mr. Rohrabacher.
    Mr. Rohrabacher. I will be ready for a second round if we 
have it.
    Chairman Royce. Okay. And we are going to go to Mr. Gregory 
Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    Let me first say, Ambassador McFaul, you are right, and 
that I have learned a lot listening to all three of you. As you 
said in your initial statements, it has been very----
    Ambassador McFaul. And I will send you my book for free, 
okay.
    Mr. Meeks. Okay. I will take it. I will read it. I have a 
long trip. It will be good to read. And let me also say that, 
for me, you know, I consider myself a multilateralist, and I 
believe that diplomacy is the best way to try to resolve 
things. And you know, I have heard the conversations going back 
and forth about President Reagan and Gorbachev. Well, we can 
always go back to Kennedy and Khrushchev. Even when we were at 
the height of this danger of nuclear weapons, the dialogue 
between them continued. In fact, President Kennedy also went to 
the Soviet Union then to meet with Khrushchev so that they 
could have conversations, and there were telephone calls going 
back and forth in trying to make sure that we didn't have a 
major catastrophic scenario that could have ruined the world 
actually.
    And so, for me, to cast off and say that we shouldn't talk 
to one country or another just does not make sense in this day 
and age. It didn't make sense in the 1960s, and it still 
doesn't make sense today in 2016. And so we have to figure out, 
in my estimation, on how do we do talk and work with one 
another. And when I initially came into Congress, with me, 
there were two huge countries that are important. Sometimes we 
get along with them and sometimes we don't, but we have got to 
figure this out.
    Russia is one of them. Turkey is the other. Because when 
you talk about the global context, you can't act as though they 
don't exist because they do. And so much so, that I was, at 
that time, tried to establish and we were moving a long a 
Russian caucus.
    We would talk with the Russians on a regular basis and try 
to get to know members of their Parliament, because sometimes I 
think when you have parliamentarian-to-parliamentarian 
conversation relationships, that helps things, as opposed to 
breaking things down, and I, for one, think that that is a 
direction that we still need to move in, and I think it is 
tremendously important.
    And as you said, Ambassador McFaul, in this current 
administration, there is a lot that we have done together, a 
lot of things. Some, you know, when you talk about the START 
Treaty and the interest of WTO, security, U.N. Security 
Council, dealing with, you know, the sanctions against Iran as 
far as nuclear weapons are concerned because it is all in our 
mutual interest, and I agree with you 100 percent in regards to 
supporting and making sure we are there for our NATO allies and 
not pulling out.
    Now, it seems to me, and I just want to be corrected one 
way or the other, that when Medvedev was in charge, there was 
really close dialogue, et cetera. Now, some will tell me that 
Putin was always in charge, and he was the guy in the 
background. And so when it ended, and Putin came back in, it 
seemed to me that there then became some real problems with 
reference to communication, even with reference to you as 
Ambassador to Russia, and whether or not the reset agreement, 
whether or not that was successful or not.
    Can you tell me what happened? Why, you know, in that 
change, especially when Putin was in charge all along, what 
happened right in that period so that our relationships at 
least try to work in a common interest on things that are 
common to both of us, what happened in that time?
    Ambassador McFaul. So Congressman, thank you for that great 
question that I can't do justice to in a minute-and-a-half, but 
I think it is a fundamental question, because if we don't get 
the answer right, the prescriptions are going to be wrong.
    I just want to remind you that we did have this period of 
cooperation, and your efforts, Congressman, I just want to 
applaud. I think engagement is always good. Even if you 
disagree, you want to know why you are disagreeing, and 
somebody--we were talking earlier about cooperation on 
counterintelligence with terrorists. We did that, Mr. Chairman. 
We did that with the Russians. And you remember, you and I 
spent a really interesting day down at the KGB offices, right, 
learning in terms of cooperation. We were doing all those 
things.
    Moreover, I just want to read you--you don't have to 
believe. Let me quote President Medvedev speaking about NATO at 
the NATO summit in Lisbon. I was there with him. This is what 
he said on the record, and I will tell you what he said after 
the record later. He said, ``Incidentally''--this is the 
President of Russia--``even a declaration approved at the end 
of our talks states that we seek to develop a strategic 
partnership. This is not a chance choice of words, but signals 
that we have succeeded in putting the difficult period in our 
relations behind us now.''
    That is the President of Russia. That is not Barack Obama. 
That is the President of Russia just a few years ago, so you 
have to explain what happened after that----
    Mr. Meeks. That is right.
    Ambassador McFaul [continuing]. To understand the conflict. 
And in my view, just to re-underscore it, it has to do with 
Putin coming back. Yes, he was the grand decision maker all the 
time. We dealt with both the Prime Minister and the President 
when I was in the government, but at the end of day, he had a 
much more suspicious view of the United States, and in 
particular, a suspicious view that we go around the world 
overthrowing regimes, either covertly or overtly that we don't 
like.
    And by way, there is a lot of data to support his 
hypothesis about American foreign policy over the last 70 
years. And so the President--I was at many of these meetings, 
and the President would sit with Putin and say, The CIA is not 
supporting the overthrow of Mubarak. The CIA is not supporting 
the overthrow of your regime. These Russians, some of them are 
in the back here actually, they are actually acting on their 
own. These Ukrainians, they are actually acting on their own. 
They are not controlled by the United States of America.
    Putin didn't want to believe that. Now, whether he knew the 
truth but didn't want to believe it for political purposes or 
genuinely didn't believe it--we used to argue about that in the 
administration, but he decided that he needed us as an enemy, 
to discredit these people.
    And the last thing. We have heard--and you know, there is 
blame to go around, and I am happy to talk about some of the 
mistakes that we made if I had more time, because I do think we 
made a few mistakes in the Obama administration. But I want to 
radically reject this moral equivalency that somehow we are all 
to blame here, and you know, that it is blame on America, blame 
on the United States. I want to know precisely what the Obama 
administration did to cause this conflict, because I can tell 
you precisely what Putin did.
    If we had the 10 Commandments about how to be a good 
multilateralist, how to be a good international citizen, at the 
top three, one of them would be: Thou shall not annex the 
territory of thy neighbor.
    And I am sorry, that is what he did.
    Mr. Meeks. That is right.
    Ambassador McFaul. We didn't annex any territory. We didn't 
support any revolution against him, and there has to be a 
response to that. We just can't sit on our hands and say, Well, 
you know, let's all try to get along here. No, there has to be 
a response. Thou does not--especially in Europe, we cannot 
allow annexation to become policy that does not have a 
response.
    Having said all that, I want to remind you that even during 
the conflict that we had, we still managed to cooperate with 
Mr. Putin. I was there with him when we did the chemical 
weapons deal between the United States and Russia in September 
2003. That is smart diplomacy. We managed the P5+1 negotiations 
on Iran, even during this time, and some of these other issues, 
including terrorism, if we can cooperate where it is in our 
national interest, we should, but we have to also respond to 
these aggressive things when they happen.
    Mr. Meeks. Absolutely.
    Chairman Royce. We are going to go to Mr. Steve Chabot of 
Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    Ambassador Matlock. Since I was mentioned, may I make a 
statement here. I have never used moral equivalency. This is 
not my----
    Ambassador McFaul. I did not----
    Ambassador Matlock. Nor have I ever----
    Ambassador McFaul. I didn't mention you, Jack.
    Ambassador Matlock. You did.
    Ambassador McFaul. I didn't mean to.
    Chairman Royce. If I could----
    Ambassador McFaul. I was quoting my own testimony.
    Chairman Royce. If I could go to Mr. Steve Chabot of Ohio, 
he has some questions.
    Mr. Chabot. Thanks. I have just have a couple of points 
first before I ask any question. I think it is pretty clear to 
me and a number of us that I think this administration's 
withdrawal from America's traditional leadership role has left 
a power vacuum around the globe, one that Putin has taken 
advantage of, as well as other bad actors. ISIS, obviously, 
comes to mind, China building islands in the South China Sea, 
and then militarizing them.
    But Putin, with invading Crimea, and to a great extent, I 
think the West lamely protested, but ultimately did little or 
nothing, I would like to commend my colleague from the 
Commonwealth of Virginia for his attention on Crimea, for 
example, and my colleague, the ranking member, obviously has 
stressed in his remarks of Crimea that we not forget what has 
happened there, because I think the world has to a great 
extent.
    But you know, after basically invading and then having a 
bogus referendum and essentially taken over the country, they 
have continued with aggression in eastern Ukraine, and the 
Ukraines have fought bravely, but they are just outgunned. 
Putin has also been expanding Russia's military footprint in 
places like Armenia, which has welcomed thousands of Russian 
troops and an infusion of advanced weaponry, and this has 
resulted in Putin pressuring NATO's southern flank, just as the 
alliance is trying to reinforce its eastern flank, and having 
been to Poland and Latvia and Lithuania and Estonia and Hungary 
and other countries in the region, a lot of these countries are 
just scared to death with what Putin is up to.
    But Putin continues to hone in on Nagorno-Karabakh, an area 
that we don't talk about that much anymore. We talked about it 
maybe a couple of decades back, but not much anymore, but it is 
a region that is vulnerable to conflict, and tensions have 
flared up and deaths are occurring there. There has been 
military action there in recent months, and I believe he hopes 
this arrangement, Nagorno-Karabakh will shore up his 
international reputation and pull Armenia and Azerbaijan closer 
to Russia and further away from the West.
    Putin's engagement in Syria in the Middle East has only 
complicated matters there. As the U.S. works to defeat a 
ruthless terrorist group, ISIS in the region, Putin undermines 
our efforts, to a great extent, by lending support to the Assad 
regime, continuing to test the limits of Turkey, supplying 
weapons systems to Iran, and on and on.
    But let me--and I don't have a huge amount of time, 
obviously, even less. Let me go to the first point that I 
raised about Crimea.
    I think that, you know, the world, unfortunately, to a 
considerable degree, has accepted this as a fait accompli. You 
don't hear much in the news about it about--in the press much 
at all. It is my understanding that the repression there is 
worsening, that Russia is tightening its grip on Crimea, that 
they are escalating their campaign against dissents, and Dr. 
Aron, would you comment on what is happening in Crimea and what 
the rest of the world ought to be doing about it, including the 
United States now?
    Mr. Aron. Well, thank you very much, and I am sure my 
colleagues could comment, too. Just the latest number by the 
refugee agency, Ukrainian refugee agency, but I think they are 
being quite honest here. About 100,000 refugees left Crimea. 
Now, this is out of a population of probably half a million. 
What I find most dangerous----
    Mr. Chabot. That is 20 percent of the population has left 
their country?
    Mr. Aron. Approximately. Approximately. I mean, you know, 
these numbers, because nobody could get there without being 
harassed, and many are barred from going there, many 
international organizations by Russia, it is hard to say, but 
the numbers are staggering.
    What concerns me--and I would like to circle back to my 
issue of the Russian jihad, is that as far as we could 
establish, in percentage terms, relative to their population, 
the greatest ethnic representation in ISIS is Crimean Tatars, 
at between 300 and 500 people, and there are no more than 
120,000 Crimea Tatars. Now, this is greatly exacerbated by the 
fact that Putin dissolved the self-governing body of the Crimea 
Tatars in Crimea. He prevented their leaders, including Mosad 
Jamilif, former Soviet dissident, from coming back to their 
homeland, returning.
    So there is a whole group of exiles now in Ukraine. So this 
all exacerbates the situation, and it, again, feeds into 
extremism in the case of Crimean Tatars. Because when I spoke 
about the danger of the Russian jihad, from the inside, the key 
danger is that the Islamic militancy that used to be confined 
largely to North Caucasus is now spreading inside Russia. It is 
spreading toward Tatarstan. It is spreading toward the fringes. 
Of course, always the fringes, of about 6 million strong 
Central Asian Diaspora in Russia.
    So Crimea, in addition to being a gross violation of 
international norms, in addition to being a gross violation of 
human rights of the Crimean Tatars and others who live in 
Crimea, it is also a very dangerous situation where it could 
lead to the rise of Islamic extremism.
    Mr. Chabot. Thank you.
    Mr. Rohrabacher [presiding]. Thank you very much, Dr. Aron, 
and--thank you, and look who has got the gavel now.
    Ms. Bass. Oh, oh, we are all in trouble.
    Mr. Rohrabacher. My goodness, isn't democracy wonderful.
    I now recognize Karen Bass. Thank you very much.
    Ms. Bass. Why, thank you, Mr. Chair.
    One, I just wanted to thank the panelists. I really 
appreciated all the testimony, and I wanted to agree with my 
colleague here, Representative Meeks, that I am sure all of us 
learned a lot from what each of you had to say.
    I wanted to ask, Ambassador Matlock, you referred to, in 
your testimony, that you had some additional views on how we 
could reduce tension. You also said that--I believe you said 
that one thing that we shouldn't do is increase our military 
involvement, or require payments from NATO countries, and then 
you cautioned on taking on liabilities.
    And I was wondering, the ranking member is talking about 
legislation that would impose additional sanctions, and I 
wondered about your comments within that context, and if we did 
impose additional sanctions, would that be an example of the 
liabilities that you were concerned about?
    Ambassador Matlock. Yes. Thank you very much for the 
question. Obviously, in just a few minutes, I cannot go into 
great detail. Let me first address the issue of Ukraine in 
Crimea.
    I think everything said by the others has been correct, but 
they have taken a lot of things out of context. And frankly, I 
do not agree that our new national security is significantly 
affected by what happens in Ukraine. I think we have to have 
certain priorities. And second, I am certain there is no way to 
solve the problem militarily. Let's look at reality. Russia, 
given its history, given its close association, is not going to 
allow the Ukrainian situation to be solved militarily, so 
giving military aid, encouraging a military response simply 
causes more damage to the area, and it is not going to be 
solved that way.
    The basic thing we have to bear in mind, and this is 
unfortunate, but it is reality, and that is, you cannot have a 
united prosperous Ukraine which does not have close relations 
with Russia. And the second thing is, if you look at the 
politics and history and the economics, Ukraine is better off 
without Crimea. Now, I don't like the way Russians took it, and 
we should not recognize it, as we don't. However, to think that 
by bringing pressure to bear on them we can make them change 
their policy simply plays into Putin's hands because it makes 
it a national issue. So any attempts to use military force or 
to encourage it will make the situation worse.
    Now, that is one thing. Now, on the--this is true of some 
of these other issues. Obviously, terrorism is a threat to both 
of us. I think that we need to define our aims as to what the 
ultimate aim is. Our aim in Syria should not be to remove the 
leader, whoever he is. Our aim should be to do what we can to 
keep the country from falling apart to keep ISIS out, to keep 
the refugees out of Europe.
    Now, the Russian opinion has been, you will get more chaos 
in Syria if you remove the current regime the way we did in 
Iraq, the way we did in Libya. They have a point. Can't we 
understand that?
    Ms. Bass. Can I ask you, if the ranking----
    Ambassador Matlock. I think what we need to do is to 
concentrate on those areas where our interests are and find 
better ways to do them.
    Ms. Bass. Thank you.
    Ambassador Matlock. As far as Russia's internal government, 
Russians are going to decide that. And to the degree that we 
try to interfere, they look at it just as we looked at the 
Communist Party during the Cold War.
    Ms. Bass. Okay.
    Ambassador Matlock. That is if our democratization efforts 
are simply in opposition to the current regime. They are going 
to react to that.
    Ms. Bass. Let me ask, Ambassador McFaul, I wanted to one 
question. And thank you very much, Ambassador Matlock.
    What do you see as the future? I mean, do you think that 
Putin is going to make a switch again? I don't know when his 
``term'' is over, but do you think that he will switch again 
and become the Prime Minister and prop up another President? 
What is your best guess?
    Ambassador McFaul. So first of all, I just want to be clear 
about this. To the degree that which we interfere, Putin is 
going to react. I totally agree with Ambassador Matlock on 
that. What I disagree is the assumption that somehow we are 
interfering.
    We did not give one penny to the democratic opposition when 
I was in the U.S. Government, and I just want to make that 
clear because I think you said ``perceptions.'' Well, 
perceptions have to be rebutted when they are not true, okay. 
We are not fomenting revolution in Russia and----
    Ambassador Matlock. But they had an Assistant Secretary of 
State speaking on a telephone, cell phone that could be 
monitored talking about who should be the Prime Minister of 
Ukraine in a revolutionary situation.
    Ambassador McFaul. I was speaking on----
    Ambassador Matlock. Now, what are the Russians going to 
think about that?
    Ambassador McFaul. Well, that was a mistake. I agree with 
you.
    Ambassador Matlock. Not only was it a mistake, it was----
    Ambassador McFaul. It was a mistake, but if you want to 
know the full details, it was the mistake in the----
    Ambassador Matlock. And you wonder about perceptions.
    Ambassador McFaul. Well, let me give you the----
    Ambassador Matlock. If it had happened in----
    Ambassador McFaul. Doctor----
    Ambassador Matlock [continuing]. Cuba or Mexico, how would 
we have reacted?
    Ambassador McFaul. So let me give you the full context of 
that conversation if you are interested. The conversation was 
about how to get a coalition government together with President 
Yanukovych. We, the United States Government, the Obama 
administration, were seeking to diffuse tensions on the 
streets, and we, on February 21, worked hard with our European 
allies to cut a deal between the opposition and Mr. Yanukovych, 
President Yanukovych. The Vice President called him about a 
dozen times to cut a deal between him and the street. We were 
not trying to overthrow Mr. Yanukovych, and 12 hours later, for 
some unexpected reason, he showed up in Rostov. To this day, I 
don't know why he fled. So----
    Ms. Bass. My question----
    Ambassador McFaul [continuing]. You said we need context--
--
    Ms. Bass [continuing]. About Putin----
    Ambassador McFaul. There is little context.
    Ms. Bass. Hello.
    Ambassador McFaul. But I want to come back to your 
question, Ma'am.
    Ms. Bass. Thank you.
    Ambassador McFaul. I am a giant optimist about Russia. I 
want to make that clear. I am a huge optimist about Russia. I 
can't predict when and where, and the interregnum, I have no 
prediction about, but I, as a social scientist, I study 
political and economic change around the world, and Russia is a 
rich country. Russia has a rising middle class. Most Russians 
want to be integrated into the world, and yes, Russians should 
be in charge of their own fate. But Russians, all of them, not 
just Mr. Putin or that regime, and I just don't think those 
structural forces of change that Russia is going to somehow be 
the one country that becomes middle income or high--when they 
become an even higher income country, and be the one country 
that will not move in this kind of forces for political and 
economic modernization.
    I just have met too many young people that are just like my 
students at Stanford that just want a normal life. They want a 
good job, they want to travel abroad, and they want their 
government to represent them----
    Mr. Rohrabacher [presiding]. Thank you.
    Ambassador McFaul. And so in the long run, I am incredibly 
optimistic about Russia. I just don't know how long the long 
run is.
    Mr. Rohrabacher. Thank you, Mr. Ambassador.
    Mr. Aron. Chairman Rohrabacher----
    Mr. Rohrabacher. The Chair will recognize Mr. Joe Wilson of 
South Carolina.
    Mr. Wilson. Thank you, Acting Chairman Dana Rohrabacher. 
And it is right on point. I have been optimistic about a U.S./
Russian friendship. And I have had a number of visits have been 
very inspiring to me to promote nuclear cooperation, building 
friendships with the people of Russia from Moscow to St. 
Petersburg to Novosibirsk and Siberia. I have been very 
grateful that my home community of Columbia is the sister city 
of Shiabinsk. I have had wonderful visits. And every time I go, 
I have been so impressed by the people of Russia, the culture 
of Russia.
    I have had members of the Duma visit our office. They have 
been welcomed. But sadly, things have not developed like I 
anticipated. Additionally, in my home community of South 
Carolina, the midlands of South Carolina, we welcomed a large 
number of very prosperous Russian Americans to our community. 
In fact, the Columbia Civic Ballet could be misidentified as 
the St. Petersburg Civic Ballet, and we welcome the--again, the 
extraordinary contributions of Russian Americans to our State.
    But sadly, the high hopes that I had of mutual benefit 
cooperation, as you indicated, with growing middle class travel 
has really been crushed by the aggression that I have 
personally seen in our extraordinarily brave ally, the Republic 
of Georgia, and that hasn't been mentioned. That was 2008. And 
then, of course, the aggression in Ukraine.
    With that, Dr. Aron, in April 2016, Russian fighter jets 
flew within 30 feet of the USS Donald Cook, then flew a Russian 
interceptor within 50 feet of American reconnaissance aircraft. 
Could you explain the rationale between such bizarrely 
dangerous actions on the part of Russia and what can be done by 
the United States and our allies to curtail such activity?
    Mr. Aron. My goodness, that is quite a question. Before I 
answer, just a factual correction, if I may. I misspoke. The 
population of Crimea is 2 million people. So 100,000 refugees 
constitutes about 5 percent, not 20 percent, an important 
correction.
    I am a big believer, and I know--and I know Jack Matlock 
may not agree with that, but I think Mike McFaul, and I think 
similarly about these things. I think most of these acts are 
done for domestic political purposes. The government of 3 years 
ago, before Ukraine, before anything else, a top Russian 
political sociologist, whose name I will not mention, just I 
don't want to get him in trouble, told me, Leon, you know, why 
are you talking about foreign policy as something separate from 
domestic? The only thing going for this regime is its foreign 
policy. This is where the legitimacy is. Russia rising off its 
knees again, Russia is where the Soviet Union used to be, and 
Vladimir Putin secured Russia as a great super power again.
    We underestimated the appeal that this caused in the hearts 
and minds of millions of Russians because we underestimated the 
hurt that occurred when the Soviet Union collapsed. So these 
singular facts of bringing it to the brink and bringing it to 
the point is to show domestically that Putin is not intimidated 
by the United States, that he is ready to take all the 
necessary means to defend Russia against the danger that may 
not exist.
    I think Mike McFaul and I agree on this. The point is that 
he is almost forced to act provocatively because that is where 
his regime support and legitimacy and popularity is.
    Mr. Wilson. And, but again, 30 feet, 50 feet, that is 
ridiculous. The obvious extraordinary loss of life that could 
occur is so irresponsible, and not in the interest of the 
people of Russia, or its foreign policy or its military.
    Mr. Aron. Sir, as I said in the concluding remarks to my 
statement, we are facing an unprecedented danger, a risk-prone, 
highly personalistic authoritarian regime that acts both out of 
mission and out of ideology. It is pushed toward these types of 
acts, and that is what scares me the most.
    Mr. Wilson. You mentioned Foreign Affairs magazine, and 
yesterday, General Philip Breedlove, the former commander of 
European commander and NATO supreme allied commander, had an 
article that I am confident you probably already read, that 
America needs to do more to deter the Russian threat. And so I, 
again, appreciate all of your service, and I thank you very 
much for being here today. And I yield back to the----
    Mr. Aron. Thank you.
    Mr. Wilson [continuing]. Acting chairman, of all people, 
Dana Rohrabacher.
    Mr. Rohrabacher. Well, thank you. Now, let me get this 
straight. You have a candidate somewhere saying he wants to 
make his country great again? And then takes over the reigns of 
power? That could never happen really in a modern society, 
could it?
    All right. It is supposed to be a joke. That was supposed 
to be funny. All right. We now have Mr. Boyle.
    Mr. Boyle. Thank you, and thank you to all three of the 
witnesses. I have several things I want to go over, but first, 
I can't help the irony that we are having this hearing, and 
literally, in the last 5 minutes, The Washington Post is 
reporting that according to security experts, Russian 
Government hackers have hacked the Democratic National 
Committee to find oppo research that the DNC has, and that is 
according to our own security experts. So spare me the moral 
equivalency language that mistakes have been made on both 
sides.
    Second point I would like to make is I know that there are 
some who want to conveniently take shots at President Obama and 
the Obama administration over what happened in Crimea, and that 
somehow if the U.S. President had been stronger, this would 
have been prevented. Is it Hungary, 1956, President Eisenhower; 
1968, Czechoslovakia would have been Lyndon Johnson; 2008, when 
George W. Bush was President, the invasion of Georgia. Those 
were previous Presidents, both Democrats and Republicans, who 
were unable to prevent a Russian premier, or then chairman of 
the USSR, from acting.
    Now, third, that having been said, I want to associate 
myself with what Ranking Member Engel said in terms of our 
response now moving forward to support Ukraine. I believe there 
is more that we can be and should be doing. Clearly, we are in 
joint operations now with the three Baltic Republics as well as 
in Poland. I wish that we were doing more, and I am a cosponsor 
of legislation to do more in Ukraine, and I was hoping that 
possibly Mr. McFaul, you could speak to that more specifically 
what we could be doing now to bolster Ukraine and make sure 
that those who are Western looking succeed, because I agree, 
that would be one of the greatest things for American foreign 
policy.
    Ambassador McFaul. So thank you for your question, and I 
agree. I want to associate myself with you in terms of that 
historical record. I think, in terms of Ukraine, I just want to 
underscore, again, more context, that I don't see consolidating 
democracy or strengthening markets in Ukraine as anti-Russian. 
When I was Ambassador, we had this argument frequently with 
senior members of the Russian Government, and we--our position, 
our administration's position, was you should be able to join 
whatever trade agreement you want, whatever treaty you want, as 
long as it doesn't infringe on other rights and 
responsibilities that you have in other organizations that you 
joined in terms of seeking win-win outcomes.
    I think the idea of going back to some 19th century idea of 
spheres of influence makes no sense in the 21st century. The 
borders, you know, where I live in the Silicon Valley, the idea 
that somehow borders and geography are what makes countries 
rich or not is just, you know, that is a very outdated----
    Mr. Boyle. Very retrograde.
    Ambassador McFaul. Yeah, I want to just really make that 
clear that this is not an anti-Russian policy that to support 
Ukrainian democracy or Ukrainian markets. And in that regard, I 
think the best investment that you all have supported with your 
support has been to help develop Ukrainian civil society. I 
think it has been a fantastic success story, that it cannot be 
done in other countries for other circumstances. But I think 
the pressure from society to make the government perform is the 
best way to try to help reform in Ukraine.
    And it is working now. It is difficult, it is hard, it is 
not easy to correct 30 years of oligarchic corrupt capitalism. 
I want to underscore that. It is going to be a long process. It 
is going to take some electoral cycles, in my view, to change 
that, but I think that is the core. Support society, support 
independent media, and they will put the pressure on the 
government.
    Mr. Boyle. Let me--since I have time and now less than, in 
50 seconds, let me just shift a bit. You know, there is 
something kind of self-centered in a sense that we always think 
when foreign policy actor does X, it is somehow because of 
something that the U.S. did or did not do. I tend to believe 
that a lot of Putin's actions in Crimea and eastern Ukraine 
have less to do with any U.S. policy and more to do with 
Russian domestic politics, and specifically, his standing, and 
I was wondering if any of you would like to speak to that. 
Agree or disagree?
    Ambassador McFaul. Could I just briefly say----
    Ambassador Matlock. Now----
    Ambassador McFaul. Go ahead, Jack. Go ahead. I will go 
second.
    Ambassador Matlock. I think one thing we tend to forget is 
that there is only one country that can solve Ukraine's 
problems, and that is Ukraine. The basic problem is that 
Ukraine is a deeply divided society.
    When I was Ambassador to the Soviet Union, whenever I went 
to Ukraine, I always gave my speeches in Ukrainian language. I 
have been following things that happened in Ukraine since I was 
a high school student and did reporters on the role during the 
war. I know this country. And I also know that when they got 
independence, their borders were, to some degree, artificial. 
Crimea had only been added by fiat without consulting anybody 
in the 1950s.
    Now--and so Ukraine--I went there to advise a group in the 
late 1990s on national security from--other former colleagues 
from our National Security Council, we were telling them how we 
organize our national security. The Ukrainians came back and 
said: Look, you are talking about foreign policy. Let me show 
you what our problem is. And they showed the sides of the last 
election, very evenly divided almost entirely on the west on 
one side and on the other side in the east and south.
    Now--and this is in every election. Also, they had a 
constitution, which was not a Federal constitution, it was 
unitary. A President who won maybe by just 1 percentage of the 
vote named every governor. And you know where the violence 
started after the Maidan? It started in the west by them taking 
over the governorships. The corrupt President that they got rid 
of would never have been elected if Crimea had not been part of 
Ukraine.
    There are a lot of issues here, a very deep history, and 
the basic problem is Ukraine. Yes, Russia has intervened, just 
as we take a very close interest in countries to us but----
    Chairman Royce [presiding]. Yes, Ambassador, but we have 
run over the time.
    Ambassador Matlock [continuing]. The fact is the Ukrainians 
are going to have to solve it.
    Chairman Royce. Right.
    Ambassador Matlock. And our involvement tends to have a 
negative effect.
    Chairman Royce. Yes, Ambassador. We are going to need to go 
to Mr. Ted Poe of Texas. Thank you.
    Mr. Poe. Thank you, Mr. Chairman. Thank you all for being 
here. Ambassador Matlock, I appreciate the fact that you are so 
knowledgeable, and you have looked at the whole issue with 
Russia as a historical point of view starting with really 
before World War I. I think we need to understand history, 
especially the way the Russians understand history so that we 
can move forward.
    I am not going to ask you a question, because if I ask you 
a question, it is like asking you the time, you will tell me 
how to make a watch, and so I am just going to make a couple of 
comments.
    I never thought I would see the day that in a committee 
hearing, we would have two former Ambassadors from the same 
region of the world mix it up together during the committee 
hearing. I think that is--it is a good thing. I am not being 
critical.
    Ambassador McFaul. It is democracy, right?
    Mr. Poe. It is democracy. I think it is a good thing. Let's 
talk a little bit about Hitler.
    The Russians moved into Georgia in 2008. I am always in the 
wrong place at the wrong time. I happened to be there a week 
after they invaded, and I saw the tanks up on the hill, and 
then in the West, we didn't do anything, and the tanks are 
still there and they have one-third of Georgia.
    Crimea, the Russians took Crimea, their little green men, 
they moved into eastern Ukraine, chairman and I and some others 
were there right after the Russians came into eastern Ukraine, 
and they are still there. I just need a yes or no from the 
three of you.
    Are the Russians going to stay in that one-third portion of 
Georgia, Crimea, and eastern Ukraine? Are they going to stay 
there or are they going to go home? Are they going to stay, Mr. 
Ambassador McFaul? Let's start on--I will start on the far left 
here. Are they going to stay in those areas?
    Ambassador McFaul. My prediction is yes. You said one word.
    Mr. Poe. One word. It is either yes or no.
    Ambassador McFaul. I am a professor. I don't know how to 
give one word answers. Yes.
    Mr. Poe. Ambassador Matlock, just yes or no.
    Ambassador Matlock. I think they are going to stay in those 
enclaves in Georgia, which the Georgians treat it the way the 
Serbs were treating Kosovo.
    Mr. Poe. All right.
    Ambassador Matlock. And the problem has been----
    Mr. Poe. Mr. Ambassador, excuse me for interrupting.
    Ambassador Matlock. Crimea----
    Mr. Poe. Crimea, are they going to stay in Crimea?
    Ambassador Matlock. Will they stay? Most likely, unless----
    Mr. Poe. Answer the question.
    Ambassador Matlock. Unless----
    Mr. Poe. Are they going to stay in Crimea?
    Ambassador Matlock [continuing]. The majority of the people 
prefer to be in Ukraine. In that case, Crimea will become a 
liability, and there will be incentive to join with Ukraine.
    Mr. Poe. Eastern Ukraine, are they going to stay in eastern 
Ukraine?
    Ambassador Matlock. They would be required to give Crimea 
autonomy----
    Mr. Poe. Mr. Ambassador, just answer the question.
    Ambassador Matlock [continuing]. Which now they haven't 
been. I think a lot of----
    Mr. Poe. Mr. Ambassador, to stay in eastern Ukraine? The 
Russians in eastern Ukraine?
    Ambassador Matlock. In eastern Ukraine, no. I think there 
was never an intent----
    Mr. Poe. Dr. Aron, what is your opinion?
    Ambassador Matlock [continuing]. To take the Dombok. The 
Dombok----
    Mr. Poe. I have moved on to the next witness.
    Ambassador Matlock. But they----
    Mr. Poe. I have moved on to the next witness, please, sir. 
I reclaim my time. My time.
    Chairman Royce. I think just----
    Ambassador Matlock. They will make sure that there is not 
an anti----
    Mr. Poe. I need some help, Mr. Chairman.
    Ambassador Matlock. In charge of the Dombok.
    Chairman Royce. I think my hearing is a little impaired, 
and I am not the only one with the difficulty sometimes of 
hearing, and so we will go to Dr. Aron.
    Mr. Poe. Thank you, sir.
    Mr. Aron. Yes, on all three until the regime changes
    Mr. Poe. All right. The only other question I have time for 
is what do you think the Russians will do next? Where are they 
going? I think Putin finds an opportunity, he seizes it, and he 
moves in. People in Russia are nationalistic. His popularity 
skyrocketed when he went into Georgia and Ukraine. You know, I 
think he wants to be the next czar of Russia. I think that is 
probably what he is after, but where do you think they are 
going to go--Putin is going to move next?
    Ambassador McFaul. I don't assume that he has a grand plan 
to go into this place and that place and the other. I think it 
is incumbent upon us to reduce the opportunities for him to do 
those things. I think Novorossiya has been a fantastic failure, 
for instance. What he tried to do in seizing territory in the 
eastern Ukraine has been a fantastic failure, and it is, in 
part, a failure because there was pushback. And that is why, 
you know, I go back to peace through strength. If we make sure 
that he has no doubt about our commitments to Estonia, Latvia, 
and Lithuania, that will keep the peace, and that is what I 
would want us to focus on as a way not because to confront 
Russia, but to keep the peace on that very precarious border.
    Mr. Poe. Dr. Aron, what is your opinion, future movement, 
if any, by Mr. Putin?
    Mr. Aron. The most vulnerable is the Baltics, and of them, 
the most vulnerable, the Narva area between Russia and Estonia. 
And I agree with Mike, those are three NATO members now, and 
presumably, that is a deterrent.
    But if the domestic situation requires it, I think Putin 
may try to expose NATO as a paper tiger, and have a great 
upsurge in domestic popularity. So that is a huge risk.
    Chairman Royce. We need to go to Mr. Cicilline of Rhode 
Island.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you to our 
witnesses. I had an opportunity recently to travel with my good 
friend, Mr. Rohrabacher, to Moscow, and one of the meetings we 
had was at the Voice of America, Radio Free Europe. What I 
learned was very disturbing. The Russian Government, under the 
leadership of President Putin, had shut down all of the radio 
stations. I think there were 30 or so.
    There was one station remaining that had a freestanding 
license, and then the Russian Government passed a law that 
required, if I am remembering this correctly, that it have the 
majority Russian ownership, so that license ultimately was 
revoked as well.
    So Ambassador McFaul, it seems to me that in responding to 
this very sophisticated and very pervasive state-controlled 
media and propaganda machine, I think, really extraordinary, I 
think the best estimates are that they spend more than $450 
million a year to broadcast to more than 30 million Russian 
speakers 24 hours a day, 7 days a week. What, if anything, are 
we doing, can we do to provide information that counters that 
narrative when the Voice of America and Radio Free Europe are 
basically precluded from providing information, or maybe that 
has changed since my visit?
    Ambassador McFaul. So I want Leon Aron to speak to this 
because he does serve on the BBG board and he knows these 
issues a lot better than I do, but I do want to just associate 
myself with what he said earlier in his testimony.
    It is difficult for the United States Government to give 
money to reporters because that immediately will taint them. I 
know, you know, all the reporters, almost all the reporters in 
Russia, and if they were here today, the independent ones, they 
would say do not do that. We can't--we can't take your money. 
We need to be independent. What we can do is we can provide 
them with information, we can have strategic alliances with 
them to provide that, we can provide internships in our news 
organizations. We, at Stanford University, for instance, we 
have a Knight Fellowship program where we will soon have the 
former editor of Oktyabr as a visiting scholar because she was 
thrown out of her job.
    And so those kinds of things, educational programs, I 
think, need to get much more attention. Because there are lots 
of, literally thousands of Russians, trying to figure out a way 
to contribute to their country that are now living in exile. 
These are the kind of opportunities that we should expand, but 
what we can do internally, I will let Leon answer that 
question, if he wants to.
    Mr. Aron. Thanks very much, Mike. Thank you, sir. Just a 
brief comment. Russia is still not Iran or China. Social media 
are more or less free, and this is where the effort is going, 
because the generation we will want to affect is the generation 
of social media. And you know, as far as I know, BBG and the 
gruntees, that is the radios, are less of radios. They are more 
of TVs, they are more of Twitter, they are more of social media 
platforms, and I think there is hope there.
    Mr. Cicilline. Thank you. The second question I have is, 
one thing we saw a tremendous evidence of was the deterioration 
of the Russian economy, serious structural problems, falling 
oil prices, the Ukraine-related sanctions, and it is pretty 
clear the Kremlin has worked to preempt potential domestic 
discontent through this distraction of foreign interventions.
    And my question really is, with the conflict in eastern 
Ukraine settling into a stalemate and the Russian military 
intervening in Syria last fall, how long can this kind of 
opportunistic strategy work? And what should we do to prepare 
against it? Maybe Ambassador McFaul, I can start with you?
    Ambassador McFaul. So I agree with your analysis, and 
public opinion poll data out of Russia, even though it is very 
difficult to get accurate data, also concurs with that. I would 
just say historically and comparatively, we are not very good 
at predicting when declines and economic growth or depression 
leads to political change, and I would just remind you that I 
would never try to make a prediction based on that. But is 
there tension around that? Are people asking why are we in 
eastern Ukraine when, you know, our economic situation is 
getting worse? That question is being asked more and more 
there.
    My view is we need to stay the course in terms of what the 
policy is. I want to lift sanctions on Russian individuals and 
companies. I want to associate myself with that, if and when 
they do what they have signed up to do and their proxies have 
signed up to do in Mensk. It is just that simple. If you do 
this, then the sanctions will be lifted.
    I find it very scary when people say sanctions aren't 
working, so let's lift them, or an idea that is floating around 
Europe right now, let's do partial sanctions for partial 
implementations. I think those are very bad ideas. Thank you.
    Chairman Royce. We have luncheon with the Dalai Lama, so--
and without objection, there are a couple of witness statements 
that I am going to include for the record.
    And now we will go to Mr. Tom Marino of Pennsylvania.
    Mr. Marino. Thank you, Chairman. Excellent hearing. 
Gentlemen, I would like you to be as precise as possible. We 
all have something to do after this. I have three questions.
    Ambassador McFaul. I am not having lunch with the Dalai 
Lama. I wish I were.
    Mr. Marino. I am a former prosecutor. I don't have time for 
long winded answers. Let's go to number 1.
    Ambassador McFaul, Putin obviously has a very big ego. 
People say to me he wants to be next General Secretary. I 
disagree with that. I think Putin wants to be the second Peter 
the Great, and the plan to make Russia a leading power, if not, 
the leading power with the world. What say you?
    Ambassador McFaul. I agree.
    Mr. Marino. Great.
    Ambassador McFaul. But I want Russia to be great, too. I 
personally think it would be in our national interest for 
Russia to be great. I do not believe the strategy he is seeking 
to achieve that objective is a smart one.
    Mr. Marino. Great. Okay. Dr. Aron, Bush's decision not to 
intervene in Georgia and Obama's decision not to intervene in 
Ukraine, I see that as signaling to Putin that the United 
States does not care to get involved in these foreign affairs, 
and as that, the U.S. will not challenge Putin, or NATO will 
not challenge Putin, will this allow him or signal to him that 
he could continue his expansionism?
    Mr. Aron. Putin has not been made to pay for his policies, 
definitely. The benefits, domestic political benefits, far 
supersede the price that he had to pay, either economically or 
militarily. There are ways to change this balance. It would 
require the things that Mike mentioned about Ukraine. I am also 
for arming Ukraine with strictly defensive weapons--but you're 
absolutely right. So long as his benefits, his domestic 
political benefits, exceed, far exceed the price that he pays 
politically and economically and militarily for his adventures, 
he will continue.
    Mr. Marino. Okay. And I am taking a gamble here, Ambassador 
Matlock. Please be very concise in your answer. Will Putin back 
off if the United States significantly increases its military 
strength and go back to the belief of Reagan through peace 
through strength?
    Ambassador Matlock. I think he is more likely. I don't know 
that anybody can say precisely what he will do. He may not 
know. But the danger is, if we confront what he is doing 
militarily, which as yet, I think does not affect our national 
interest with military means, he can push us into another 
nuclear arms race. I think that is what we have to watch, 
because that is going to be very hard to deal with.
    Mr. Marino. Okay. Good point, Ambassador Matlock. And then 
Dr. Aron, would you respond to that as well? Do we need to 
increase our military strength to keep Putin in check? 
Ambassador McFaul
    Ambassador McFaul. Yes.
    Ambassador Matlock. I think----
    Mr. Marino. Sir, Just a minute. Just a minute. I am asking 
Ambassador McCaul.
    Chairman Royce. Ambassador McFaul, you are recognized.
    Ambassador McFaul. My answer is yes.
    Mr. Marino. Okay.
    Ambassador McFaul. I support everything we are doing 
leading up to the Warsaw Summit.
    Mr. Marino. And I am sorry, I referred to you as McCaul.
    Ambassador McFaul. Because you have a Member McCaul.
    Mr. Marino. I know. Dr. Aron.
    Mr. Aron. I believe that Putin needs to see some credible 
signs of paying more for his policies. Whether--I don't think 
we need to, you know, boost, you know, tremendously our 
military forces, but we need to look at specific instances 
where we can credibly threaten Putin to pay a higher price 
domestically, politically, for his adventures abroad.
    Mr. Marino. Just a little information. I am vice president 
of the NATO Parliamentary Assembly. I hear consistently, when I 
am in NATO meetings around the world, what is the United States 
going to do to put Putin in his place? I think perhaps he is 
one of the most dangerous people in the world, and gentlemen, I 
would love individually to have dinner with each one of you. I 
could learn so much. Thank you very much. I yield back.
    Chairman Royce. Thank you, Mr. Marino, and I also want to 
thank the panel, the witnesses here today. We--and Jerry.
    Mr. Connolly. Thank you.
    Chairman Royce. How are you?
    Mr. Connolly. Fine.
    Chairman Royce. I am calling--I am going to recognize you. 
Go ahead.
    Mr. Connolly. Thank you, my friend. Thank you, Mr. 
Chairman. I want to pick up where my friend Mr. Marino left 
off. I am the head of the U.S. delegation to the NATO 
Parliamentary Assembly, and I have to say, I heard a lot of 
stuff from my friend from California and from Ambassador 
Matlock that would not, in any way, reflect the reality of our 
NATO partners across the board, with one or two exceptions. 
Boy, it would come as news to the Baltic republics that the 
Russians are peace-loving people who are just buzzing our ships 
in the Black Sea because we are too close to their littoral, 
because the Russians are buzzing them, and they are guilty of 
one thing, sovereign independence. That is what they are guilty 
of.
    They are not doing anything provocative. In fact, the very 
last thing in the world they want to do is anything 
provocative. Explain that Russian behavior. The illegal 
annexation of the sovereign territory of the Ukraine, the 
Crimea, and now the illegal occupation. I was just in the 
Ukraine. Fighting goes on as we speak. People are dying because 
of Russian provocation. Russian subterfuge pretending these are 
Ukrainian nationalists and patriots who they have no control 
over.
    We have already lost one commercial airliner in that 
conflict. It was almost certainly downed. It was almost 
certainly downed at the loss of terrible civilian life over the 
sovereign territory of the Ukraine because of Russian 
provocation and Russian provocateurs, not Ukrainians, not 
Americans hating Russia. Russian behavior.
    Putin seems to be engaged in some kind of reestablishment 
of Russian hegemony in some kind of delusional czarist longing 
for some glorious past that really never existed, and that is 
very dangerous. It is also dangerous for Putin to misread U.S. 
resolve and NATO resolve. I worry about that.
    History, in the last 200 years of this republic, is strewn 
with people who made that miscalculation, pushed us too far.
    And Ambassador McFaul, I couldn't agree with you more with 
what you said earlier. That is Russia's responsibility. Maybe 
we have miscalculated an occasion. And we certainly shouldn't 
cloud the fact that there are areas of cooperation we 
appreciate. You know, we cooperate on the space station. We 
cooperated on JCPOA to a great contribution to world peace, as 
far as I am concerned. Although many of my friends on the other 
side of aisle, in fact, all of them opposed it, but it has been 
100 percent complied with, and we are grateful to Russian 
participation and responsibility for at that.
    But Putin seems to be pushing all the wrong--you know, the 
hot buttons with respect to the NATO alliance and to the United 
States. And I guess I would ask this, Ambassador McFaul: What 
is it you think Putin is trying to do? I mean, is it a testing 
of the system? Is it something more than that?
    Ambassador McFaul. So thank you for your question, and I do 
agree that we need to stand with our allies. I think the idea 
of four new battalions in the east is the correct thing. Again, 
those battalions are not going to invade Russia. Come on, let's 
be honest about this. Only fools would think about doing that, 
and we are not foolish, but they are there in a defensive 
posture.
    You know, my own view of why he did what he did is very 
contingent and circumstantial and emotional. I was still 
Ambassador, right? He didn't invade Ukraine when I was 
Ambassador. He invaded the day after I left. I want to point 
that out for the record. But the buildup was there, and it was 
in response to the collapse of the government in Kiev, right? 
It was to exact revenge over his ally falling there. It was 
not, in my view, some grand design to recreate the Soviet 
Union, and that, therefore, gives me hope that if we----
    Mr. Connolly. But let me interrupt you.
    Ambassador McFaul. Yeah, please.
    Mr. Connolly. Again, I just came back from the Ukraine, but 
I also was in Kurdistan, I was also in Mongolia. My sense in 
Central Asia is deep anxiety about Russian intentions. There is 
a sense among those countries that that is precisely what he is 
up to, that this was not an isolated example.
    Mr. Poe and I, the co-chairs of the Georgia caucus, I 
assure you the Georgians feel that this is about territorial 
reengagement and reexpansion after a period of contraction 
under Yeltsin and that period. And so I think there is real 
anxiety among lots of former eastern countries too and they are 
looking to our leadership to try to respond to it.
    Mr. Chairman----
    Chairman Royce. And I think on that point, Mr. Connolly, we 
really want to thank all the members. I want to thank the 
witnesses here, too. We had a great exchange of information. We 
may be following up with each of the witnesses here, and Tom 
Marino may be following up with you on dinner plans. So again, 
thank you, and we stand adjourned.
    [Whereupon, at 12:10 p.m., the committee was adjourned.]                                    

                                   

                            A P P E N D I X

                              ---------- 
                              
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

        

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
